TOP MANAGEMENT CHALLENGES
    Department of Transportation

     Report Number: PT-2004-006
    Date Issued: December 5, 2003
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT’s Top Management Challenges                                        Date:    December 5, 2003
           PT-2004-006
  From:    Kenneth M. Mead                                                             Reply to
                                                                                       Attn. of:   J-1
           Inspector General
    To:    The Secretary
           The Deputy Secretary Designate

           The Office of Inspector General (OIG) has identified 10 top management
           challenges for the Department of Transportation (DOT) for fiscal year (FY) 2004.
           In considering the items for the FY 2004 list, we continue our focus on the
           Department’s key responsibilities for transportation safety and efficiency.1

           These management challenges are complicated by the current Government and
           transportation environment: we have entered a period of deficit spending; trust
           fund revenues are down; program needs are up; and the Department has pending
           reauthorizations in intercity passenger rail, highways, motor carriers, and transit.
           The exhibit to the report compares this year’s list of management challenges with
           the list we published in FY 2003.

           In our opinion, the Department is making real progress on most of its management
           challenges, either through implementing changes or by developing detailed plans
           to do so in the near future.

           The OIG’s list of DOT’s top management challenges for FY 2004 are summarized
           below and presented in greater detail beginning on page 5. This report will be
           incorporated into the DOT Accountability Report, as required by law.




           1
             We removed items related to the Coast Guard and the Transportation Security Administration, since those agencies
           left DOT in 2003.
                                                                                                                      2


• Highway Safety.2 Taking aggressive action to prevent drivers from obtaining
  Commercial Driver’s Licenses (CDL s) through kickbacks or other fraudulent
  schemes (of the over 40,000 annual highway fatalities, 11 percent involve large
  trucks); strengthening the system used to identify high-risk motor carriers for
  review; implementing the Transportation Recall Enhancement, Accountability,
  and Documentation (TREAD) Act to facilitate proactive identification of
  vehicle safety defects; and continuing to support programs for primary
  enforcement of seat belt laws and prevention of drug-impaired driving (page 5).

• Aviation Safety. Ensure Federal Aviation Administration (FAA) safety
  oversight keeps pace with industry and economic changes such as significant
  increases in contracting of aircraft maintenance to third parties. Also, there has
  been real progress in the last year on runway incursions (potential collisions on
  the ground), but operational errors (when air traffic controllers allow planes to
  come too close together in the air) continue to increase. Corrective actions are
  imperative to address this ongoing safety problem (page 7).

• Hazardous Materials Safety and Security. For safety and cost-effectiveness
  reasons, the Department needs to take aggressive steps to coordinate hazardous
  materials (HAZMAT) inspection and enforcement efforts among the modal
  administrations in order to leverage limited HAZMAT inspection resources.
  This would include an education program and inspection/enforcement strategies
  for dealing with a common shipper who causes problems across several of the
  Department’s modes, such as a noncompliant HAZMAT shipment that uses
  motor carrier, rail, and air to move from origin to destination (page 10).

• Protecting Taxpayer Investments in Highway and Transit Infrastructure
  Projects. Improve the taxpayers’ return on highway and infrastructure
  investments by: imposing meaningful debarment sanctions on firms that
  provide substandard materials or in other ways defraud highway and transit
  infrastructure projects; aggressively fighting motor fuel tax evasion—a drain on
  highway and transit revenues; and strengthening oversight of infrastructure
  projects to ensure they are delivered on-time and within budget. Even if these
  steps result in only a 1 percent savings, they could have a dramatic impact on
  the taxpayers’ bottom line. For instance, if the efficiency with which the
  Federal Government and the states invested $700 billion in highway projects
  2
      We removed the related item from last year’s list on “Ensuring Highway Safety as the Southern Border Is Opened
      to Mexican Motor Carriers Under the North American Free Trade Agreement.” The Department geared up
      sufficiently to provide safety oversight at the border, but then the border opening was delayed pending completion
      of an Environmental Impact Statement (EIS) and a Clean Air Act analysis being done as a result of an order by the
      Ninth Circuit Court of Appeals. Additionally, the Department of Justice filed a certiorari petition seeking
      Supreme Court review of the Appeals Court decision. We took this item off the top management challenges list
      because there is little the Department can do to address this matter until completion of the EIS and the Clean Air
      Act analysis and resolution of the legal issues.
                                                                                                                 3


  over the last 6 years had been improved by only 1 percent, an additional
  $7 billion would have been made available—enough to fund 8 of the 15 active
  major highway projects (page 12).

• Improve Fiscal Discipline at FAA. FAA plans to address cost growth in
  operations and fundamental problems in major acquisitions. These actions are
  urgently needed, given an expected multi-billion-dollar decline in Aviation
  Trust Fund revenues. Continued salary increases on the scale experienced over
  the last few years are simply unsustainable in light of these revenue losses. The
  budget situation also makes it imperative that FAA act promptly to address
  fundamental weaknesses in its modernization acquisitions. Of the 20 major
  acquisitions we reviewed, 13 projects experienced schedule slips of 1 to 7 years
  and 14 projects experienced cost growth of over $4.3 billion—significantly
  more than FAA’s entire FY 2004 request for modernization (page 15).

• Intercity Passenger Rail. DOT and Congress have required much greater
  financial accountability from Amtrak this year.             However, Amtrak’s
  authorization expired over a year ago. Without a new structure for the
  governance of intercity passenger rail agreed to by the interested parties,
  Amtrak will continue the status quo limp-along system that is financially
  dysfunctional and fails to satisfy mobility needs in corridors between city pairs.
  The Administration currently has a reauthorization proposal on Capitol Hill;
  however, achieving agreement among the Administration, the Congress, the
  states, and other interested parties on a final reauthorization measure is a
  tremendous challenge only partly under DOT’s control (page 19).

• MARAD Loan Guarantee Program.                   The Maritime Administration
  (MARAD) is in the process of implementing a series of recommendations we
  made to the Secretary and the Congress on how best to minimize financial loss
  to the Government from MARAD’s $3.8 billion Title XI Loan Guarantee
  Program, which is designed to assist private companies in obtaining financing
  for the construction of ships or the modernization of U.S. shipyards. Congress
  has linked MARAD’s ability to issue further guarantees to its successful
  implementation of our recommendations (page 21).3

• Financial Accountability. There has been progress in the last year in this area,
  but DOT still has a long way to go to strengthen three important financial
  management activities. First, DOT needs to free up millions in inactive

  3
   In the FY 2003 list, we removed the item related to MARAD’s disposal of obsolete vessels. MARAD has made
   progress in contracting for the disposal of obsolete vessels from the National Defense Reserve Fleet; however,
   environmental concerns and legal proceedings have hindered these efforts. If these concerns are not resolved and
   additional progress is not made in meeting the legislative mandate to dispose of obsolete vessels by the end of
   FY 2006, we will consider including this issue as a top management challenge in the FY 2005 report.
                                                                                  4


  obligations or idle funds, especially at the Federal Highway Administration
  (FHWA). Second, improve oversight of cost-reimbursable contracts which
  have few inherent protections against cost overruns. Third, complete
  implementation of the new Delphi financial management system, which will
  enable DOT to strengthen financial controls and generate reliable financial
  reports (page 23).

• Disadvantaged Business Enterprise Program. The Disadvantaged Business
  Enterprise (DBE) Program suffers from a high level of fraud and abuse as well
  as significant gaps in the Department’s oversight.          We are currently
  investigating 40 DBE fraud schemes in 19 states. Over the last 5 years, our
  DBE investigations have resulted in 29 convictions. We have also found areas
  where the DBE regulations need strengthening. For instance, the DBE
  regulations covering airport concessions need to prescribe a personal net worth
  limit for the owner of a DBE. The Secretary established a senior level DBE
  task force this year, but the task force must now make tangible and prompt
  progress in strengthening the DBE Program (page 26).

• Information Technology Management. This past year, the Department made
  progress in protecting its critical Information Technology (IT) systems against
  Internet intrusions. However, DOT is still behind in securing individual
  systems and must do more to protect critical IT systems (especially air traffic
  control systems) from attack and enhance contingency planning to ensure
  business continuity in an emergency. In addition, DOT must strengthen its new
  Investment Review Board to improve the Board’s ability to oversee high-risk
  modal IT acquisitions and maximize returns on the Department’s $2.7 billion in
  annual IT investments (page 28).

Another area we wish to mention is the issue of human resources management. In
the coming year, the Department’s senior management needs to consider whether
it will be at serious risk of not being able to recruit and retain top talent. Our
concern is based not only on the large percentage of DOT staff expected to retire
or reach retirement eligibility in the next few years, but the fact that none of the
DOT agencies, except FAA, have personnel rules and pay flexibility that have
been granted to the Department of Homeland Security and the Department of
Defense. This may place DOT at a disadvantage at the very time the Department
is expected to lose large numbers of experienced staff and needs to recruit top
talent to replace them.

If you have any questions concerning this report, please call me at (202) 366-1959;
Todd J. Zinser, my Deputy, at (202) 366-6767; or Alexis M. Stefani, Principal
Assistant Inspector General for Auditing and Evaluation, at (202) 366-1992.
                                                                                   5



1    Highway Safety. Taking aggressive action to prevent drivers
     from obtaining Commercial Driver’s Licenses (CDLs) through
     kickbacks or other fraudulent schemes; strengthening the system
     used to identify high-risk motor carriers for review; implementing
     the Transportation Recall Enhancement, Accountability, and
     Documentation (TREAD) Act to facilitate proactive identification
     of vehicle safety defects; and continuing to support programs for
     primary enforcement of seat belt laws and prevention of drug-
     impaired driving.

In 2002, 42,815 people were killed and more than 2.9 million were injured in
traffic crashes on the Nation’s highways. Fatalities reached the highest level since
1990, increasing by 1.5 percent from 2001. Although fatalities involving large
truck crashes have continued to decline, one out of nine traffic fatalities in 2002
resulted from crashes involving large trucks.

To achieve the Department’s 2008 goals of reducing all traffic fatalities to 1 per
100 million vehicle miles traveled and large truck fatalities to 1.65 per 100 million
vehicle miles traveled, the Federal Motor Carrier Safety Administration (FMCSA)
and the National Highway Traffic Safety Administration (NHTSA) need to attack
a range of challenging problems. FMCSA must ensure that only drivers with the
requisite skills obtain and retain CDLs by:

• Curbing CDL fraud through more rigorous oversight of state testing programs
  and by having states adopt useful control techniques we have recommended
  such as the covert monitoring of driver examiners.

• Promptly implementing revisions to the CDL program passed by Congress in
  1999 that strengthen the regulatory framework of the program, such as a
  provision eliminating state programs that mask or withhold convictions from a
  commercial driver’s record.

FMCSA must also improve tools used to select high-risk motor carriers for
compliance reviews by taking aggressive steps to obtain more complete and
accurate data. States now fail to report to FMCSA an estimated one-third of large
trucks involved in crashes annually, impacting the effectiveness of the model used
to target unsafe carriers for compliance reviews.

NHTSA has made significant progress implementing the TREAD Act,
successfully completing 20 of the Act’s 22 requirements (i.e., rulemakings,
reports, or studies). NHTSA must fully implement its new safety defect
                                                                              6


information system, called the Advanced Retrieval (Tire, Equipment, Motor
Vehicles) Information System, to receive and store early warning reporting
information to be submitted by manufacturers beginning in December 2003. In
FY 2004, NHTSA must ensure that its screeners and investigators are able to:
(1) analyze, in a thorough and timely manner, the large volume of manufacturers’
information expected; and (2) appropriately use that information to determine
when to open and how to prioritize vehicle defect investigations.

Any discussion of highway safety would be incomplete without coverage of use of
safety belts and prevention of driving under the influence of alcohol and drugs.
DOT, NHTSA, and the states have made impressive progress this year on
increasing the use of safety belts—a top management challenge last year. This
important initiative deserves continuing emphasis, as do programs to prevent
driving under the influence of alcohol and drugs.


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• Review of NHTSA’s Progress in Implementing Strategies to Increase the Use
  of Seat Belts
• Improving the Testing and Licensing of Commercial Drivers
• Progress and Challenges in Implementing the TREAD Act
• NHTSA Office of Defects Investigation
• Disqualifying Commercial Drivers
                                                                                  7



2    Aviation Safety. Ensure Federal Aviation Administration (FAA)
     safety oversight keeps pace with industry and economic changes
     while maintaining a focus on long-standing safety issues.

The U.S. aviation industry continues to be the safest in the world, with only
one commercial accident occurring in the past year. However, FAA must adjust
its safety oversight to emerging trends in the aviation industry and changing
economic conditions. Also, there has been real progress in the last year on runway
incursions (potential collisions on the ground), but operational errors (when air
traffic controllers allow planes to come too close together in the air) continue to
increase. Corrective actions are imperative to address this ongoing safety
problem.

Repair Station Oversight Needs to Be Enhanced. In a July 2003 report, we
identified three ways that FAA needs to enhance its inspections of airline
maintenance.

• While air carriers have turned increasingly to outside, contracted repair
  stations, FAA continues to focus its inspection resources on air carriers’
  in-house maintenance work. Air carriers have outsourced portions of their
  maintenance work for years, but this practice has recently become more
  pronounced. While major air carriers outsourced 37 percent of their aircraft
  maintenance expense in 1996, the amount spent on outsourced maintenance
  increased to 47 percent of maintenance costs in 2002. Yet, over 90 percent of
  FAA’s inspections are still focused on in-house maintenance—leaving contract
  repair stations inadequately reviewed. In response to our audit, FAA agreed to
  develop a new process to identify repair stations that air carriers use to perform
  safety-critical repairs and target inspector resources to those facilities.

• Although widely used by some air carriers, some FAA-certified foreign repair
  stations are not inspected by FAA inspectors at all because other civil aviation
  authorities review these facilities on FAA’s behalf. This arrangement helps
  prevent duplicative inspections and reduce the financial burden on foreign
  repair stations. However, in 14 of 16 (88 percent) files we reviewed, we found
  that foreign inspectors did not provide FAA with sufficient information to
  determine what was inspected, what problems were found, and how they were
  corrected. This occurred because FAA had not implemented adequate
  oversight procedures for ensuring the quality of inspections conducted on its
  behalf. FAA has agreed to conduct follow-up reviews with the three foreign
  aviation authorities conducting inspections on its behalf and develop a
  procedure to verify that the authorities place adequate emphasis on FAA
  regulations when conducting their inspections.
                                                                                                    8


• Our review of repair stations disclosed weaknesses in repair station operations
  at 18 of the 21 (86 percent) facilities we visited. For example, we identified
  repair stations that did not: (1) use the parts required by the maintenance
  manual; (2) properly calibrate tools and equipment; (3) have information on
  file to show that mechanics approving completed repairs were qualified to do
  so; or (4) correct deficiencies previously identified by FAA inspectors. These
  weaknesses went undetected by FAA surveillance because of the weaknesses
  in FAA’s oversight structure and the process inspectors used during repair
  station inspections. In response to our audit, FAA agreed to develop a more
  comprehensive approach to repair station surveillance.

When implemented, FAA’s proposed changes to address our audit findings should
enhance its oversight of aircraft repair stations. The key will be follow-through.

FAA Must Reduce the Number of Operational Errors. Operational errors (when
air traffic controllers allow planes to come too close together in the air) pose a
significant safety risk, with
an          average         of
three operational errors per             Figure 1. Operational Errors
day and one serious error                         FY 1998—FY 2003
every 7 days. In FY 2003,
the number of operational                                                                        Rate*
errors increased 12 percent FY 1998                                               885             5.6
to 1,186, or 125 more than FY 1999                                                 941            5.7
the number of incidents that                                                            1,145
                                 FY 2000                                                          6.8
occurred in FY 2002, as
                                 FY 2001                                                 1,194    7.4
shown in Figure 1. Further,
                                                                                                  6.7
the most serious errors FY 2002                                                         1,061
                                                                                         1,186    7.6
(those in which a collision **FY 2003
was       barely      averted)           0    200        400      600      800 1,000 1,200 1,400
increased 25 percent, from * Rate is per 1 million air traffic operations.
44 in FY 2002 to 55 in ** FY 2003 numbers are preliminary and will be finalized in January 2004.
FY 2003. Moreover, the
system FAA uses to rate errors may understate the number of serious errors that
occur. FAA classifies the seriousness of operational errors as high, moderate, or
low. However, we found that errors FAA classified as moderate could result in
catastrophic consequences. For example, FAA rated one error as moderate that
was less than 12 seconds from a midair collision.

FAA needs to ensure that air traffic controllers who make operational errors
receive training.    FAA also should closely evaluate the impact of its
Controller-in-Charge (CIC) Program on the increase in operational errors.
Operational errors that occurred while a CIC was on duty increased 43 percent
                                                                                                              9


from 174 in FY 2002 to 248 in FY 2003. Finally, FAA must modify its rating
system to more accurately identify the most serious operational errors, focus on
reducing them, and ensure that controllers receive the appropriate training after
they have experienced a high risk error.

In response to our April 2003 report, FAA agreed to re-evaluate its severity rating
system for operational errors. However, to date, FAA has not completed that
evaluation. FAA also agreed to take steps to more closely monitor its CIC
Program, improve its oversight of regional efforts to reduce operational errors, and
provide training to controllers.

FAA Must Continue to Reduce Runway Incursions. For the second year in a
row, runway incursions (potential collisions on the ground) continued to
decline, from 339 in FY 2002 to 324 in FY 2003, as shown in Figure 2. FAA also
reduced the number of close calls
(those runway incursions in the
2 highest categories) from 37 in          Figure 2. Runway Incursions
FY 2002 to 32 in FY 2003. While                  FY 1998—FY 2003
                                                                       Rate*
this represents significant progress,
there is still an average of almost      FY 1998             304        4.7
one runway incursion per day and an      FY 1999              329       4.8
average of one close call every          FY 2000                  405   5.9
                                                                  407   6.2
11 days.                                 FY 2001
                                                           FY 2002                         339         5.2
In view of the potential loss of life        **FY 2003                           324                5.2
in a runway accident, FAA must                           0   100 200 300 400 500
continue its aggressive approach to         * Rate is per 1 million tower operations.
                                            ** FY 2003 numbers are preliminary and will be finalized in January 2004.
reduce       runway        incursions.
Specifically, FAA needs to follow
through on its plans to train pilots to avoid runway incursions and use technology
to warn pilots and controllers of potential incidents.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• Review of Air Carriers’ Use of Aircraft Repair Stations
• Operational Errors and Runway Incursions: Progress Made, but the Numbers
  of Incidents is Still High and Presents Serious Safety Risks
• Air Transportation Oversight System
• FAA Oversight of Passenger Aircraft Maintenance
• Oversight of FAA’s Aircraft Maintenance, Continuing Analysis and
  Surveillance Systems
                                                                                10



3    Hazardous Materials Safety and Security. For safety and
     cost-effectiveness reasons, the Department needs to take
     aggressive steps to coordinate hazardous materials (HAZMAT)
     inspection and enforcement efforts among the modal
     administrations in order to leverage limited HAZMAT inspection
     resources. This would include an education program and
     inspection/enforcement strategies for dealing with a common
     shipper who causes problems across several of the
     Department’s modes.

The dual role of ensuring the safety and security of HAZMAT shipments is an
enormous challenge for DOT. More than 800,000 HAZMAT shipments are made
daily by air, water, rail or highway, with more than 94 percent of the shipments
transported by highway.

DOT has invested upwards of $100 million in the last 2 fiscal years in HAZMAT
programs, but it has not successfully coordinated its efforts in order to maximize
the possible impact of the program. HAZMAT incidents over several years
demonstrate the importance of improving DOT’s efforts in this area. While most
HAZMAT incidents are not as catastrophic as the 1996 crash of ValuJet Airlines
Flight 592 in the Florida Everglades, caused by an in-flight fire from improperly
packaged oxygen generators, DOT reports that HAZMAT incidents have been on
the upswing, predominantly highway and air incidents. Over the 11-year period
1990 to 2000, incidents involving the transport of HAZMAT by motor carriers
have doubled from 7,296 to 14,743 and incidents involving HAZMAT shipments
by air carriers have tripled from 470 to 1,415. DOT also reports that HAZMAT
civil penalty collections for all modes of transportation doubled from $5.2 million
in FY 1990 to $11.1 million in FY 1998, the most current data available.

DOT needs to centralize its cross-modal HAZMAT inspection and enforcement
activities, given DOT resource constraints and the safety and security implications
of a serious HAZMAT incident, intentional or not. Prior reform efforts have not
worked; DOT’s HAZMAT authority is exercised by the Research and Special
Programs Administration (RSPA), FMCSA, Federal Railroad Administration
(FRA), and FAA, with minimal coordination among the various modes.

Coordinating inspection and enforcement efforts among modal administrations
will enable the Department to leverage its limited inspection resources, thus
increasing both the effectiveness and number of HAZMAT shipment inspections.
Examples of better coordination would be allowing one modal administration to
clear a shipment that would eventually be shipped through more than one mode
(i.e., 55-gallon drums of ammonium nitrate shipped via rail from one location and
                                                                               11


then trucked from there would only have to be inspected once). DOT also needs
the capacity to identify and effectively marshal its resources when several of the
Department’s modes are experiencing problems with the same shipper or
transporter of HAZMAT.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• Departmentwide Program          Evaluation    of   the   Hazardous    Materials
  Transportation Programs
                                                                                   12



4    Protecting Taxpayer Investments in Highway and Transit
     Infrastructure Projects.       Continue efforts to ensure that
     highway and transit projects are delivered on-time, within budget,
     and free from fraud; and aggressively fight motor fuel tax
     evasion, which is a drain on revenue for the Department.
The Department’s ability to achieve its strategic goals of increased mobility,
improved safety, and sustained economic growth undoubtedly will be challenged
in the face of an unprecedented Federal deficit of about $374 billion, numerous
states bracing against financial crises, and declining Highway Trust Fund
revenues. Aggressive oversight is needed to ensure that the over $37 billion
annual Federal investment in highway and transit projects is well managed and
protected from fraud. Over the last 4½ years, highway- and transit-related fraud
indictments have tripled, convictions have doubled, and monetary recoveries
exceeded $89 million. There are 130 OIG investigations of infrastructure projects
ongoing in 36 states.

Improvements to project oversight and efficiency can have major results. Whether
funds are lost to cost overruns, schedule delays, or fraud, the result is the same—
fewer resources available for important transportation projects. To illustrate, if the
efficiency with which the $700 billion invested by the Federal Government and
the states over the last 6 years in highway projects had been improved by only
1 percent, an additional $7 billion would have been made available—enough to
fund 8 of the 15 active major highway projects. Fraud also continues to increase
costs on infrastructure projects.

In addition to ensuring that funds are spent effectively, the Department must
ensure that all tax dollars due to the Highway Trust Fund are received. Evasion of
Federal motor fuel taxes is a problem that FHWA estimates deprives the Highway
Trust Fund of over $1 billion in annual revenue.

The Budget Situation. Between FY 1999 and FY 2001, Highway Trust Fund tax
receipts dropped from $39.3 billion to $31.5 billion, a 20 percent decline. Current
estimates show that between FY 2003 and FY 2006 Highway Trust Fund tax
revenues will be approximately $20 billion less than projections made in April
2001, and they are not expected to return to the FY 1999 level until FY 2008.

Delivering Projects On-Time and Within Budget. Our reviews of large highway
and transit projects have disclosed that stronger stewardship of the over $37 billion
in Federal funds invested annually in highway and transit projects is essential. As
evidenced by its reauthorization proposal and other initiatives, DOT’s senior
leadership has taken positive steps toward strengthening stewardship of highway
and transit funds. Plans have been made to ensure full disclosure of costs at the
                                                                                     13


onset of projects, monitor expenditures during the life of the projects, expand
FHWA’s skill base and refocus its oversight activities, and debar contractors
convicted of fraud. However, the Department must follow through on these plans,
some of which can be done administratively.

Keeping Projects Free From Fraud. The Department must also act to ensure that
highway and transit project funds are not lost to fraud. While we will continue our
investigative focus in this area, the Department can take several steps to protect its
interests against fraud, such as: (1) establishing a vigorous departmentwide
debarment and suspension policy; (2) allowing recoveries and civil penalties to be
retained by the states; (3) holding recipients accountable for aggressive oversight
of their programs; (4) increasing scrutiny of cost proposals, change orders, and
claims; and (5) providing specialized fraud prevention training at the state level.

Preventing Motor Fuel Tax Evasion. While legislative changes have brought
about significant progress in combating motor fuel tax evasion (which FHWA
estimates costs $1 billion in revenue each year), a more vigorous and collaborative
enforcement effort by state and Federal agencies—including the sharing of
Internal Revenue Service fuel tax records—is needed to more effectively target
enforcement activities.

Documented evasion techniques include daisy chains (false paper documentation),
bootlegging, cocktailing/blending (mixing motor fuel with other liquids),
fraudulent exemption claims, failure to file or filing false returns, and the use of jet
fuel in highway vehicles. Cross-border bootlegging of fuel demonstrates the
importance of cooperation between state and Federal enforcement offices. This
typically occurs when there is a significant difference in the motor fuel tax
charged in bordering states. The perpetrator purchases fuel and pays the
associated tax in the low-tax state, then smuggles the fuel into the high-tax
jurisdiction where they sell the fuel and pocket the difference in taxes. Finding
and preventing this type of fraud can only occur through the efforts of Federal
investigators in collaboration with enforcement teams from the states involved.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• October 2002 Finance Plan for the Central Artery/Tunnel Project
• Audit of the Seattle Central Link Light Rail Project’s Initial Segment
• DOT FY 2004 Budget and Management Challenges
• Management of Cost Drivers on Federal-Aid Highway Projects
• Opportunities to Control Costs and Improve the Effectiveness of Department of
  Transportation Programs
                                                                   14


• Controlling Costs and Improving the Effectiveness of Federal Highway
  Administration and Federal Transit Administration Programs
                                                                                  15



5    Improve Fiscal Discipline at FAA. Controlling operations cost
     growth and addressing fundamental problems with major
     acquisitions.
FAA’s FY 2005 authorization of $14.6 billion currently exceeds estimated
Aviation Trust Fund FY 2005 revenues by $3.5 billion. Over the next 4 years, the
Fund is expected to collect about $12.5 billion less in taxes than was anticipated in
April 2001. Within this context, it is imperative that FAA contain the trend of
continued cost growth in its operations and address long-standing and fundamental
problems with major acquisitions.

Abating Operating Cost Growth. FAA’s operations budget, which primarily
covers salaries, has increased from $4.6 billion in FY 1996 (the first year of
personnel reform) to $7.7 billion requested for FY 2005, a 67 percent increase.
Given the substantial decline in Aviation Trust Fund revenues, a sizeable
challenge for the Agency will be to manage within an operating budget that is
relatively flat. For instance, the $7.7 billion requested for FY 2005 operations
represents an increase of $141 million over FY 2004 levels; however, estimated
pay increases for FY 2005 alone are expected to be nearly $180 million.

Further, within the proposed $7.7 billion, FAA will incur additional costs to hire
and train new controllers as the Agency begins to address the anticipated wave of
controller retirements. FAA estimates that about 7,100 controllers could leave the
Agency by the end of 2012. A key challenge for FAA will be to reduce the time
and cost required to train new controllers—in some cases this process can take up
to 7 years. FAA will also need to renegotiate existing work rules that allow some
newly hired controllers to earn base salaries of up to $94,000 while in training.

To abate the growth in operating costs, FAA needs to have both its cost
accounting and labor distribution systems in place and operating effectively, and it
needs to renegotiate memorandums of understanding (MOUs) between FAA and
labor that have extensive cost implications.

• FAA must have its cost accounting system in place and operating effectively to
  accurately know when and where costs are incurred. FAA also needs an
  accurate labor distribution system to track the costs and productivity of its
  workforces. An accurate labor distribution system is critical for determining
  how many controllers FAA will need and where they are needed—information
  that is particularly important in light of the pending wave of controller
  retirements. FAA is planning on implementing a labor distribution system
  called CRU-X for the Air Traffic line of business (FAA’s largest workforce).
  However, in September 2002, FAA entered into an MOU with the controllers’
                                                                                 16


   union that eliminated many of the system’s internal controls and severely
   limited the system’s ability to track employee productivity.         In our
   June 3, 2003 assessment of FAA’s cost accounting system, we cited the lack of
   those fundamental procedures as a serious internal control weakness. In
   response, FAA agreed to implement satisfactory internal controls for CRU-X
   and has begun correspondence with the controllers’ union to reopen
   negotiations concerning the CRU-X MOU. The new Chief Operating Officer
   (COO) for the Air Traffic Organization has committed to putting FAA’s cost
   accounting and labor distribution systems in place.

• FAA will also need to address provisions of MOUs with labor that have
  extensive cost implications.       In our September 2003 report “FAA’s
  Management and Controls Over MOUs,” we found that under the flexibility of
  personnel reform, FAA managers and union representatives entered into
  numerous memorandums of understanding that had substantial cost
  implications, but managers had not adequately considered the impact on future
  budgets. For example, one MOU we reviewed provides controllers with a
  cost-of-living differential of between 1 and 10 percent that is in addition to
  Government-wide locality pay. In FY 2002, this additional premium pay cost
  FAA over $35 million. In response to our audit, FAA implemented new
  controls over its MOU processes, and is currently in negotiations with the
  controllers union to modify or rescind several problematic MOUs identified
  during our audit.

Addressing Fundamental Problems in Major Acquisitions. In June 2003, we
reported that of 20 major acquisitions reviewed, 13 projects had experienced
schedule slips of 1 to 7 years, and 14 projects had experienced cost growth of over
$4.3 billion (increasing from $6.8 billion to $11.1 billion). This growth represents
significantly more than FAA’s FY 2004 $2.9 billion request for modernization.
Continued growth of this magnitude is unsustainable, given the multi-billion-
dollar declines in projected Aviation Trust Fund receipts and the projected fund
levels authorized in FAA’s Facilities and Equipment account, which will remain
essentially flat ($3 billion to $3.1 billion range) for FYs 2004 to 2007.

Table 1 provides cost and schedule information on three projects largely managed
since FAA was granted acquisition reform in 1996. Cost and schedule problems
with modernization efforts have serious consequences because they result in costly
interim systems, a reduction in units procured, postponed benefits (in terms of
safety and efficiency), or crowding out other modernization projects.
                                                                                                           17


                        Table 1. Cost and Schedule Growth
                      in Three Major Modernization Programs

                             Estimated                    Percent
         Program          Program Costs                    Cost               Implementation        Schedule
                        (Dollars in Millions)             Growth                 Schedule            Delay
                        Original Current                                   Original     Current
Wide Area Augmentation $892.4       $2,922.4*               227%          1998-2001   2003-TBD**     5 years
System (WAAS)
Standard Terminal       $940.2      $1,690.2                 80%          1998-2005   2002-2012**    7 years
Automation Replacement
System (STARS)
Local Area Augmentation $530.1        $696.1                 31%          2002-TBD    2006-TBD**     4 years
System (LAAS)
    *      This includes the cost to acquire geostationary satellites.
    **     TBD—To Be Determined (costs and schedules are under review).


Our work has identified a number of systemic problems of major acquisitions that
will require sustained management attention.             These problems include:
committing to major acquisitions and entering into cost-reimbursable contracts
before user needs and requirements are fully understood; misleading and
unreliable cost and schedule estimates; lack of centralized control over
acquisitions and lack of basic contract oversight; lack of performance measures for
assessing progress; and not holding managers and contractors accountable for cost
growth and schedule slips. We have seen positive signs that the FAA
Administrator and the COO are committed to making changes—the key will be
follow through.

Additionally, FAA is beginning new, costly, and complex programs while still
funding programs that are significantly behind schedule. This stretches out
program schedules, impacts other efforts, and has cash-flow implications for the
entire modernization account. One new effort is the En Route Automation
Replacement (ERAM) Program, which provides new hardware and software for
facilities that manage high altitude traffic. Another new project is the Next
Generation Air-to-Ground Communications (NEXCOM) Program, which will
provide new radios and related systems to transition to digital communications.
Together, ERAM and NEXCOM are estimated to cost more than $3 billion.

Any cost increases with these programs will have a cascading effect on other
efforts and limit FAA’s flexibility to begin other projects. FAA will need to watch
this situation and may have to rearrange priorities, modify contract instruments,
and modify requirements.
                                                                           18


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• FAA’s Management of Memorandums of Understanding with the National Air
  Traffic Controllers Association
• FAA Needs to Reevaluate STARS Costs and Consider Other Alternatives
• Status of FAA’s Major Acquisitions
• Cost Control Issues for the Federal Aviation Administration’s Operations and
  Modernization Accounts
• FAA’s National Airspace System Implementation Support Contract
                                                                                                                                    19



6    Intercity Passenger Rail. Restructure the intercity passenger
     rail system to match fiscal capacity.

DOT should continue to work with the Congress to break the cycle of
appropriations without authorization for Amtrak and to realign the size,
operations, and governance of the intercity passenger rail system to match the
levels of funding available from all sources. For FY 2004, the Administration
requested $900 million, while Amtrak maintains it needs $1.8 billion. Without a
fundamental change in the structure of the intercity passenger rail system or an
unprecedented and ultimately unsustainable boost in funding for the existing
system, Amtrak will continue to limp from one financial crisis to another, unable
to maintain its rails and equipment and provide acceptable service. While the
Administration has proposed a bill that confronts several key issues in a straight-
forward and comprehensive manner, it remains silent on the source and level of
funding necessary.

Amtrak continues to have operating losses on all but a handful of routes. In fact,
for the company as a whole, cash losses have exceeded $650 million in each of the
last 3 years and are likely to stay at that level over the next several years (see
Figure 3).

    Figure 3. Growth in Amtrak’s Operating and Cash Losses
                    FYs 1993 Through 2003
                            $1,400
                                                                                                         1,271             1,264
                            $1,200                                                                                1,149

                            $1,000                                                   916         944
                                                                             860
                                             833     808     798     797
          ($ in millions)




                             $800    731                                                                    770
                                                                                                                     678      679
                             $600              578     554     558     549     561         579     561
                                       525
                             $400

                             $200

                               $0
                                     1993    1994    1995    1996    1997    1998    1999        2000    2001      2002     2003

                                                              Ope ra ting Loss             Ca sh Loss



With Amtrak’s operating and capital needs exceeding revenues and Federal funds
provided, Amtrak sought external financing, burdening itself with a heavy debt
load and substantial principal and interest payments that must be satisfied in the
coming years. Between FYs 1997 and 2002, Amtrak’s total debt grew by
$3.1 billion, from $1.7 billion to $4.8 billion, representing an overall increase of
178 percent. Amtrak did (at least temporarily) abate this trend in FY 2003 by
reducing total debt by $40 million (or less than one percent). Just to service the
                                                                                   20


current portion of the long-term debt and capital lease obligations will require an
average of $285 million per year through FY 2010.

The Administration’s bill also proposes to focus Federal capital funding on
developing and investing in short-distance corridors (routes with end-to-end
distances of less than 500 miles). This would target service improvements to the
services that make up 84 percent of Amtrak’s ridership and hold the greatest
potential for future passenger growth. Another key aspect of the Administration’s
proposal would transfer greater power and authority to the states, in return for their
greater financial participation.

The Administration’s bill and the need to reauthorize Amtrak, bring up three
categories of issues that must be resolved by the Administration, Congress, the
states, and other stakeholders.

• Financing. Agreement needs to be reached on the timing and amount of any
  continuing Federal operating subsidies and what responsibilities for supporting
  Amtrak operations should devolve to the states. These are particularly
  sensitive issues given the potential impact on already strained state finances.
  Reauthorization will also need to determine how best to fund Amtrak’s
  ongoing capital needs and how to reduce Amtrak’s debt.

• Governance. Agreement must be reached on what authority will be given to
  the states, how the states would coordinate on inter-state corridors, and how the
  intercity passenger rail system will be administered and its progress monitored.

• Services. Finally, the interested parties must determine the level and type of
  service a restructured intercity passenger rail system should offer—whether we
  can afford to maintain a truly national rail system or if instead we should focus
  on short distance corridors between major city pairs.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• The Future of Intercity Passenger Rail Service and Amtrak
• Amtrak's Financial Condition
• Amtrak’s Performance, Budget, and Passenger Rail Service Issues
• 2001 Assessment of Amtrak’s Financial Performance and Requirements
                                                                                 21



7    MARAD Loan Guarantee Program. Minimize financial loss to
     the Government from MARAD’s $3.8 billion Title XI Loan
     Guarantee Program.

As of October 31, 2003, the Maritime Administration’s (MARAD) consolidated
Title XI loan guarantee portfolio was valued at $3.8 billion—with another
$1.5 billion in loan guarantee applications under review. These loan guarantees
are designed to assist private companies in obtaining financing for the construction
of ships or the modernization of U.S. shipyards—with the Government holding a
mortgage on the equipment or facilities financed.

In March 2003, we issued an audit report on the Title XI Program. The audit was
requested by Congress following several large loan defaults in the last 5 years that
resulted in payouts of approximately $490 million. One company alone,
American Classic Voyages Co., accounted for $330 million of that amount.

Our audit identified a number of areas where MARAD could improve its Title XI
Program practices, limit the risk of default, and reduce losses to the Government.
MARAD’s response to our recommendations includes the following actions.

• Establishing a new policy that every Title XI loan guarantee application will
  obtain an independent expert review once it is determined that the application
  involves a reasonable business plan and that adequate information exists to
  make the review meaningful. MARAD is currently in the process of
  developing a list of qualified entities to perform these reviews and establishing
  a source of funds to pay for them.

• Implementing a more rigorous analysis of the risks that arise from modifying
  loan approval criteria and imposing compensating provisions on the loan
  guarantees to minimize those risks. For example, compensating provisions
  might include requiring additional collateral or higher equity contributions
  from the borrower. As a part of this analysis, MARAD will seek concurrence
  from the Office of the Secretary for any waivers or modifications proposed for
  new Title XI loan guarantee applications or proposed modifications to any
  existing guarantees.

• Implementing a timely and systematic approach for continuously monitoring
  the financial condition of its portfolio of companies with loan guarantees.
  MARAD is currently performing financial reviews of each company, which
  includes the development of more in-depth credit watch reports for those
  companies that do not meet certain financial or operational criteria. The credit
  watch reports will be compiled and distributed on a quarterly basis to senior
                                                                              22


   staff at MARAD, as well as the Department’s General Counsel and Chief
   Financial Officer, who will meet to discuss appropriate actions.

• Developing a formal process for continuously monitoring the physical
  condition of guaranteed assets over the terms of loan guarantees, and
  instituting an improved process for monitoring the physical condition of
  foreclosed assets.

Congress has required that the OIG certify MARAD’s successful implementation
of our audit recommendations before MARAD can issue loan guarantees using
funds appropriated in Public Law 108-11, Making Emergency Wartime
Supplemental Appropriations for the Fiscal Year Ending September 30, 2003. We
are closely monitoring the steps MARAD is taking in response to our
recommendations. MARAD needs to fully implement these recommendations this
year.

From 1999 until 2001, the OIG’s list of DOT top management challenges included
the issue of MARAD’s progress in scrapping obsolete and deteriorating ships. We
removed this item from the top management challenges list last year because
MARAD has succeeded in removing 14 vessels from its fleets and had obtained
additional funding for disposal efforts in FY 2003. However, issues have arisen
this year that cast some uncertainty on the pace of the program. Environmental
concerns and recent legal proceedings in both the United States and the United
Kingdom have hindered efforts to fulfill contractual agreements between MARAD
and a British firm to dismantle 13 vessels. If these issues are not resolved or
additional progress is not made in reducing the number of obsolete vessels in the
fleet, we will consider including this issue as a top management challenge next
year.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• OIG Comments on Lake Express Title XI Loan Guarantee Application
• Title XI Loan Guarantee Program
• MARAD Title XI Loan Guarantee Program
• Limited Progress in Disposing of Obsolete Vessels
                                                                                23



8    Financial Accountability.       Build on financial management
     progress in the last year by freeing up hundreds of millions of
     dollars in idle funds, improving oversight of billions of dollars in
     cost-reimbursable contracts, and fully implementing the new
     Delphi financial management system.

There has been progress in the last year in this area, but DOT still has a long way
to go to strengthen three important financial management activities. First, DOT
needs to free up millions in inactive obligations or idle funds, especially at the
Federal Highway Administration. Second, improve oversight of cost-reimbursable
contracts, which have few inherent protections against cost overruns. Third,
complete implementation of the new Delphi financial management system, which
will enable DOT to strengthen financial controls and generate reliable financial
reports.

DOT must identify and deobligate hundreds of millions of dollars that have sat
idle on completed, canceled, or modified projects, and use those funds
productively on active projects. In FY 1999, we identified $672 million of
inactive obligations that were no longer needed or valid. In FY 2001, we
identified $293 million, including $238 million in FHWA. (Our current audit
work indicates that this problem continues.) For example, we found one case
where $25.5 million sat idle for 10 years on a project to build a garage, even
though the state decided not to build the garage years earlier. We have repeatedly
recommended that FHWA aggressively identify funds that can be deobligated
from completed or canceled projects, and redeploy those funds to active projects.
This is especially important in this time of tight budget constraints.

DOT must significantly strengthen—especially at FAA—management of
billions of dollars in cost-reimbursable contracts, which have few inherent
protections against cost overruns. In FY 2002’s Financial Statement Audit
report, we reported that FAA’s management of cost-reimbursable contracts was
deficient, lacked accountability, and did not adequately protect against fraud,
waste, and abuse. Our audits have found that FAA officials did not: (1) obtain
audits of billions of dollars in expenditures on cost-reimbursable contracts;
(2) ensure that reliable Government cost estimates were prepared and used in
evaluating contracts; (3) ensure that contractor employees were qualified to do the
work; and (4) properly account for billings and expenditures to prevent
overpayments.

Although FAA has taken some steps to improve its contract management, it has
not yet implemented all our recommendations, including obtaining necessary
interim and final audits of costs incurred for large contracts. Without these basic
                                                                                  24


management practices, FAA will not be in a position to monitor and control costs
over the life of these contracts or ensure that the Government does not pay for
unallowable costs.

Congress is also concerned about FAA’s performance in this area and, in
FY 2001, required FAA “to request the DCAA [Defense Contract Audit Agency]
audits on all acquisition contracts in excess of $100,000,000, and audits on at least
15 percent of all contracts under $100,000,000”. However, our work as of
November 2003 shows that FAA has requested audits for only 15 of 33 contracts
that FAA identified as being over $100 million—leaving over $8 billion of
existing cost-reimbursable contracts over $100 million unaudited.

DOT must successfully convert all accounting operations to the new Delphi
financial system and use the system to strengthen financial controls and
generate reliable financial reports. In order to produce audited financial
statements in time to meet the Office of Management and Budget’s (OMB)
accelerated deadline of November 15, 2004, FAA must complete the transition
and evaluate the effectiveness of its recent conversion to Delphi. A flawed FHWA
conversion this year means that DOT is now undertaking heroic efforts to meet the
current January 2004 deadline for issuing audited financial statements. Next year,
Delphi will have to produce reliable statements (including for FAA), without
massive manual adjustments, for DOT to meet OMB’s accelerated deadline.

As part of Delphi implementation, DOT needs to strengthen financial controls to
ensure that funds are only spent for authorized uses and within appropriation limits
set by Congress. During the last year, we reported three separate instances where
DOT officials diverted a total of more than $612 million to unauthorized uses. In
two cases, the diversions resulted in Antideficiency Act violations. While the
largest portion of these diversions occurred over 20 years ago and none of the
funds were diverted for personal use, and although senior DOT officials acted
aggressively to deal with the problems, the existence of multiple fund diversions
proves the need for more effective financial management controls.

DOT has set a goal date and the modal administrations must make significant
strides to implement cost accounting systems, with appropriate labor distribution
processes. Such systems will enable DOT modes to more effectively measure the
performance of their programs, thus allowing DOT to identify inefficient
activities, reduce costs, and increase productivity. Cost accounting and labor
distribution systems are key to FAA’s successful implementation of its new Air
Traffic Organization. These systems are fundamental tools for the new
organization to accurately measure the efficiency of its programs and the
productivity of its workforce. During the last 3 years, we have issued annual
reports on FAA’s cost accounting system and the system implementation progress.
                                                                             25


We cited problems with the treatment of costs, the lack of a labor distribution
system, and the need to interface the cost accounting system with the new Delphi
financial accounting system. The FAA Administrator has made correcting these
deficiencies a top priority. Successful implementation of these cost accounting
systems—crucial to gauging and lowering FAA operations costs and dealing with
other financial challenges facing the Department—must not be further delayed.

For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• Inactive Obligations, DOT, September 1999
• Inactive Obligations, FHWA, September 2001
• DOT Consolidated FY 2001 Financial Statements
• DOT Consolidated FY 2002 Financial Statements
• Implementing a New Financial Management System
• Oversight of Cost-Reimbursable Contracts, FAA
• 2002 Status Assessment of Cost Accounting System and Practices
                                                                                  26



9    Disadvantaged Business Enterprise Program.           Increase
     oversight of the Disadvantaged Business Enterprise Program to
     reduce fraud and ensure the Program benefits truly
     disadvantaged businesses.
Fraud involving the DBE Program has serious enforcement and compliance
problems that are nationwide in scope. This is a new addition to our top
management challenges list and an area in which we believe the Department has
been making insufficient progress.

DBE fraud involves a broad range of schemes, such as prime contractors who
conspire with DBE firms to fraudulently meet required DBE participation criteria
in order to win contracts. In such cases, DBEs either do not perform the work or
yield total control of personnel and operations to the prime contractors. This
crime defrauds the integrity of the DBE Program, potentially increases costs to the
Department, and harms legitimate DBEs that the Program was designed to assist.
We are currently investigating 40 DBE fraud schemes in 19 states. Over the past
5 years, our DBE investigations have resulted in 40 indictments and
29 convictions.

This matter requires more attention and greater oversight efforts by the
Department.   In two recent investigations and our briefings before the
Department’s DBE fraud task force, we made the following recommendations.

• The DBE regulations covering airport concessions need to prescribe a personal
  net worth limit for the owner of a DBE. A limitation on personal net worth
  would serve as an appropriate determinant in establishing whether an
  individual is economically disadvantaged.

• The regulations should set forth clear, objective, and tangible criteria for
  rebutting the presumption of economic disadvantage.

• Consideration should be given to establishing terms for DBE firms, and their
  owners, to ultimately graduate from DBE eligibility.

• The Department needs to strengthen the effectiveness of its stewardship of the
  DBE Program, beyond current protocols, which now largely consist of limited
  documentary reviews. Oversight should include site visits, DBE and prime
  contractor interviews, detailed certification file reviews, work-site surveillance,
  and the resources to support the compliance activities.
                                                                                  27


• The Department should perform its own up-front examination of DBE
  certification application packages.

Even if applied on a selective basis, such an approach—considerably more
hands-on in nature—would enable the Department not only to better assess the
compliance actions of local agency DBE Program managers, but also to directly
gauge the extent of regulatory compliance by participating DBEs and applicants
for certification.

The Secretary’s establishment of a senior level task force on DBE fraud was a
good first step this year. However, it is important that the task force make tangible
progress in strengthening the oversight of the DBE Program in the months ahead.

For further information, the following reports, testimonies, and links can be
seen on the OIG web site at http://www.oig.dot.gov:
• Opportunities to Control Costs and Improve the Effectiveness of Department of
  Transportation Programs
• Controlling Costs and Improving the Effectiveness of Federal Highway
  Administration and Federal Transit Administration Programs
• Criminal Investigations link
• Semiannual Report Reading Room link
                                                                                      28



10 Information      Technology Management.             Protect critical
     information technology (IT) systems from attack and maximize
     returns on DOT’s $2.7 billion in annual IT investments.
This issue must be addressed as a top management challenge because of the size
and importance of DOT’s IT systems. DOT has one of the largest IT investment
portfolios among civilian agencies. Further, DOT IT systems support air traffic
control and distribute billions of dollars in Federal grants for transportation
improvements. Security breaches against these systems could have far-reaching
effects on the Nation’s transportation system and economy.

Securing Critical Computer Systems.          Recently, DOT made noteworthy
improvements by enhancing its defense against Internet intrusions, appointing a
Chief Information Officer (CIO) to lead major IT initiatives, and developing a
more reliable inventory of systems. However, DOT’s Information Security
Program continues to be a material weakness. DOT must further protect critical
IT systems, especially air traffic control systems, against attack and enhance
contingency planning to ensure business continuity in an emergency.

Only 33 percent of DOT computer systems have undergone security certification
reviews as of September 2003—far below the 80 percent goal established by the
Administration. Yet, in June 2003, DOT established a new performance goal to
have 90 percent of total systems certified as adequately secured by July 2004.
Meeting this new goal will require significant resources in order to finish
reviewing two-thirds of its systems in the next 9 months (see Table 2).

            Table 2. System Security Certification Reviews

                   Operating                       Total    Certified by   Systems to Be
                 Administration                   Systems   September       Certified by
                                                               2003          July 2004
 Federal Aviation Administration                    421          70              351
 Federal Highway Administration                      25          14               11
 Federal Railroad Administration                     22           6               16
 Federal Motor Carrier Safety Administration         19           6               13
 Research and Special Programs Administration        25           4               21
 Bureau of Transportation Statistics                  7           3                 4
 Maritime Administration                             12           7                 5
 Federal Transit Administration                       7           7                 0
 Office of the Secretary                             46          46                 0
 National Highway Traffic Safety Administration      42          42                 0
 St. Lawrence Seaway Development Corporation          1           1                 0
 Surface Transportation Board                         3           3                 0
 Total                                              630        209               421
 Percentage                                         100%         33%              67%
                                                                               29


A related issue is the development of business continuity contingency plans in the
event key IT system operations are disrupted. As of September 2003, only
26 percent of DOT systems had established contingency plans, and these plans
were often inadequate. For instance, in about half the contingency plans we
reviewed, management did not conduct business impact analyses—a key
contingency planning step—to determine how long business could continue
without computer support. In today’s world, the Department must approach
computer security as a two pronged issue: preventing disruption wherever
possible, and planning to minimize disruptions when they do occur. The
Department must improve its efforts in both these areas.

Strengthen Departmental Oversight of IT Investment. In FY 2003, DOT
appointed a CIO and increased the CIO’s influence over IT decisions by forming a
departmental Investment Review Board (the Board). The Board, which is chaired
by the Deputy Secretary, and consists of the CIO, the Chief Financial Officer, the
General Counsel, and the Assistant Secretary for Administration, has the authority
to approve, modify, or terminate major IT investments. To ensure that the Board
can improve the cost-effectiveness of DOT’s $2.7 billion annual IT investment, it
needs to take the following actions to strengthen its oversight.

•   The Board needs to play a more proactive role in identifying high-risk modal
    administration IT projects for review. This year, the Board focused on
    reviewing “cross-cutting” IT projects, such as implementation of a new
    departmental financial management system. However, these projects account
    for less than 10 percent of DOT’s total IT investment. Yet FAA, which is
    responsible for more than 80 percent of DOT's IT investment and has had
    significant cost overruns and schedule delays with IT purchases, made
    decisions on its IT investments without the involvement of the CIO or detailed
    review by the Board.

•   The Board needs to require the modal administrations to share more timely
    information on proposed IT projects and perform more in-depth reviews of
    these data. This year, modal administrations submitted 60 major IT investment
    requests, valued at billions of dollars, to the Board for review and approval.
    However, the reviews were limited to ensuring the completeness of the
    submission, rather than verifying that the data were reliable and reasonable.
    Without these additional reviews, the Board cannot effectively influence modal
    administrations by modifying or terminating major IT investment projects that
    do not show evidence of progress.
                                                                          30


For further information, the following reports and testimonies can be seen on
the OIG web site at http://www.oig.dot.gov:
• DOT Information Security Program
• Computer Security of DOT’s Delphi Financial Management System
• Computer Security of FTA’s Grant Management and Payment Systems
• Computer Security and Controls at U.S. Coast Guard Aircraft Repair and
  Supply Center
• Shutdown of TASC’s Transportation Computer Center

                                     #
                                                                                                             31


EXHIBIT
                    Items in FY 2004 Report                                     Items in FY 2003 Report
• Highway Safety. Taking aggressive action to prevent drivers         • Reducing Fatalities and Injuries on Our
  from obtaining Commercial Driver’s Licenses (CDLs) through            Highways, Emphasizing Seat Belt Law
  kickbacks or other fraudulent schemes; strengthening the              Enforcement
  system used to identify high-risk motor carriers for review;
  implementing the Transportation Recall Enhancement,
  Accountability, and Documentation (TREAD) Act to facilitate
  proactive identification of vehicle safety defects; and
  continuing to support programs for primary enforcement of seat
  belt laws and prevention of drug-impaired driving.
• Aviation Safety. Ensure FAA safety oversight keeps pace             • Reducing the Risk of Aviation Accidents Due to
  with industry and economic changes while maintaining a focus          Operational Errors and Runway Incursions
  on long-standing safety issues.
• Hazardous Materials Safety and Security. For safety and             • Continuing to Improve Transportation Security
  cost-effectiveness reasons, the Department needs to take
  aggressive steps to coordinate hazardous materials (HAZMAT)
  inspection and enforcement efforts among the modal
  administrations in order to leverage limited HAZMAT
  inspection resources.      This would include an education
  program and inspection/enforcement strategies for dealing with
  a common shipper who causes problems across several of the
  Department’s modes.
• Protecting Taxpayer Investments in Highway and Transit              • Clamping Down on Fraud, Obtaining Better
  Infrastructure Projects. Continue efforts to ensure that              Value in Highway and Bridge Investments, and
  highway and transit projects are delivered on-time, within            Reauthorizing TEA-21
  budget, and free from fraud; and aggressively fight motor fuel
  tax evasion, which is a drain on revenue for the Department.
• Improve Fiscal Discipline at FAA. Controlling operations            • Reversing FAA’s Spiraling Operating Costs,
  cost growth and addressing fundamental problems with major            Improving Aviation System Capacity, and
  acquisitions.                                                         Reauthorizing AIR-21
• Intercity Passenger Rail. Restructure the intercity passenger       • Determining the Future of Intercity Passenger
  rail system to match fiscal capacity.                                 Rail
• MARAD Loan Guarantee Program. Minimize financial loss                 None
  to the Government from MARAD’s $3.8 billion Title XI Loan
  Guarantee Program.
• Financial Accountability. Build on financial management             • Accomplishing DOT’s Core Missions of Safety
  progress in the last year by freeing up hundreds of millions of       and Mobility During and After an Effective
  dollars in idle funds, improving oversight of billions of dollars     Transition of TSA and Coast Guard
  in cost-reimbursable contracts, and fully implementing the new
  Delphi financial management system.
• Disadvantaged Business Enterprise Program. Increase                    None
  oversight of the Disadvantaged Business Enterprise Program to
  reduce fraud and ensure the Program benefits truly
  disadvantaged businesses.
• Information Technology Management.               Protect critical   • Strengthening     Computer     Security  and
  information technology (IT) systems from attack and maximize          Investment Controls for DOT’s Multi-Billion
  returns on DOT’s $2.7 billion in annual IT investments.               Dollar Information Technology Investment
  None                                                                • Ensuring Highway Safety as the Southern
                                                                        Border Is Opened to Mexican Motor Carriers
                                                                        Under NAFTA
   None                                                               • Meeting Coast Guard’s Safety and Security
                                                                        Missions
